LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

February 11, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-497: THE INCLUSIVE COMMUNITIES PROJECT, INC. V. LINCOLN PROPERTY
COMPANY, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Respondents' Brief
in Opposition referenced above contains 6,079 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 11th day of February 2020.

